2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Legal Brief E-Mail Address:
8 s contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1297

JAMES K. COLLINS AND
TONI SHARRETTS COLLINS,
Petitioners,

v.
D.R. HORTON-TEXAS, LTD.,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of July, 2020, send out
from Omaha, NE 1 package(s) containing 1 copies of the PETITION FOR REHEARING in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
TONI L. SHARRETTS COLLINS
LAW OFFICE OF TONI L. SHARRETTS COLLINS
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 — Telephone
iceattorney@aol.com
Attorney for Petitioners

Subscribed and sworn to before me this 10th day of July, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

em] Kens Q.Llaos? Onder h Chale

Notary Public Affiant 39963

My Comm. Exp. September 5, 2023

 

 
Ben A. Baring Jr.

Counsel of Record
Paul J. McConnell IIT
DeLange Hudspeth
1177 West Loop South
Suite 1700
Houston, TX 77027
713-871-2010
bbaring@dhmtlaw.com
pmcconnell@dhmtlaw.com

ATTORNEYS FOR RESPONDENT
